Supreme Court, U.S.
FILED

21-5257

JUN 2 3 2021
OFFICE OF THE CLERK

No. 21In The
SUPREME COURT OF THE UNITED STATES
Jermaine Latwone Haynes,
Petitioner,
v.
George Stephenson, Warden
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Jermaine Latwone Haynes, #342370
Petitioner, pro se*
Macomb Correctional Facility
34625 26 Mile Road
Lenox Township, MI 48048

This document was prepared with the assistance of a non-attorney prisoner
assigned

to

Corrections.

the

Legal Writer

Program

with

the

Michigan

Department

of

i f

-**'u

QUESTIONS PRESENTED
Was Petitioner Denied His Constitutional Right
To The Effective Assistance Of Counsel and A
Fair Trial Proceeding, Pursuant To U.S. Const.,
Amends Vi, Xiv; Mich. Const. 1963, Art. 1, §20,
Where Defense Counsel failed To:

«

PARTIES TO THE PROCEEDING
All parties appear in the caption of the case on the cover page.

;

.>

TABLE OF CONTENTS
TABLE OF CITED AUTHORITIES,.....:

1

CITATIONS OF THE REPORTS OF THE OPINIONS AND ORDERS BELOW.... iv
STATEMENT OF JURISDICTION........ .

iv

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

iv

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE PETITION

5

I.

DID COUNSEL PROVIDE INEFFECTIVE ASSISTANCE, IN VIOLATION OF
THE CONSTITUTIONAL RIGHT TO COUNSEL AND THE STATE AND
FEDERAL DUE PROCESS CLAUSES, WHERE DEFENSE COUNSEL
5
FAILED TO:

a. TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO
. INVESTIGATE, DISCOVER AND PRESENT MS. MELROSE
HAYNES’ TEXT MESSAGES TO THE PETITIONER AND
POSSIBLE TESTIMONY AS WELL AS PETITIONER’S TEXTMESSAGES TO HIS BROTHER WHICH REVEALED
7
PETITIONER’S PRESENT STATE OF MIND
b. DEFENSE COUNSEL PROVED INEFFECTIVE WHEN HE
FAILED TO OBTAIN HOSPITAL AND POLICE
REPORTS/DOCUMENTS THAT WOULD HAVE
SUBSTANTIATED PETITIONER'S CLAIM AS TO WHY HE
FEARED FOR HIS LIFE............................................................. 10
c. COUNSEL WAS INEFFECTIVE FOR FAILING TO PRESENT A
SELF-DEFENSE THEORY, AND FOR FAILING TO QUESTION
THE PETITIONER AS TO THE OCCURRENCES WHICH LED
TO HIS BEHAVIOR ON THE DAY OF THE INCIDENT......... 11
d. TRIAL COUNSEL PROVED INEFFECTIVE WHEN HE FAILED
TO INTRODUCE MITIGATING CIRCUMSTANCES AT
PETITIONER'S SENTENCING WHICH COULD HAVE
RESULTED IN A LESSER SENTENCE BY THE TRIAL
14
JUDGE

e. PETITIONER WAS DENIED HIS RIGHT TO DUE PROCESS
AND EFFECTIVE ASSISTANCE OF COUNSEL WHEREIN
COUNSEL NEGLECTED TO HAVE AT APPELLANT'S
DEFENSE ANY PSYCHOLOGICAL TESTING OR WITNESSES
TO DETERMINE AND ESTABLISH THE SANITY AND
14
CULPABILITY OF THE PETITIONER.

i

CONCLUSION AND RELIEF SOUGHT.

16

PETITION APPENDIX INDEX
APP A - United States Court of Appeals, Sixth Circuit Order, 4*20*21

A1-A3

APP B - U.S. Dist. Ct. * E.D. Mich. Order and Judgment, 2*3*20

B1-B9

APP C - Michigan Supreme Court Order, 11-24*15

Cl

APP D - Michigan Court of Appeals Order, 5*19*15

D1-D6

TABLE OF CITED AUTHORITIES

> t '

Page(s)

Cases
Federal Cases
Blackburn v Foltz, 828 F. 2d. 1177, (CA 6, 1987)

13

Glasser v United States , 315 US 60; 62 S Ct 457; 86 LEd 680 (1942)

10

Gideon v Wainwright, 372 US 335, 342; 83 S Ct 792, 796; 9 LEd2d 799 (1963)

11

Goodwin v Balkcom, 460 U.S. 1098; 103 S. Ct. 1798; 76 L. Ed. 2d. 364 ( 1983)

19

Hanna v Ishee, 694 F.3d 596, 605 (6th Cir.2012).....................................................

8

Harpster v. Ohio, 138 F.3d 322, 327 (6th Cir. 1997)................................................

9

Haynes v. Taylor, 529 U.S. 362, 405 (2000)...............................................................

8, 9

Kimmelman v Morrison, 477 U.S. 365; 106 S. Ct. 2574; 91 L. Ed. 2d. 305 (1986)... 13
McCellan v Rapelje, 703 F.3d. 344 (CA 6, 2013)

14

McCellan v Rapelje, unpublished, 2010 W.L. 2447999

14

Moore v U.S., 432 F.2d. 730, (3rd Cir., 1970)

19

Olden v. United States, 224 F.3d 561, 565 (6th Cir. 2000)
Powell v Alabama, 287 U.S. 45; 53 S. Ct. 55; 77 L. Ed. 2d. 158 (1932)
Harrington v. Richter,

U.S.

, 131 S. Ct. 770, 785 (2011)

9
10
9

Strickland v Washington, 466 U.S. 668; 104 S.Ct. 2052; 80 L.Ed.2d. 674 (1984).... 11,
13,16, 19
Von Moltke v Gillies, 332 U.S. 708; 68 S. Ct. 316; 92 L. Ed. 2d. 309 (1948)

13

Michigan Cases
People v Bass, 247 Mich. App. 385; 636 NW 2d 781 (2001)

; 13

People v. Carbin, 463 Mich 590; 617 NW2d 332 (2001).........

11

l

People v Carrick, 220 Mich App 17* 22; 5,58;NW2d 242 (1996) ......

12

People v Chapo, 283 Mich App 360, 371 (2009)....................................

21

People v Dixon, 263 Mich. App. 393; 688 N.W.2d. 308 (2004)..........

21

People v Dye, 6 Mich. App. 217; 148 N.W.2d. 501 (1967)...............

20

People v Ginther, 390 Mich. 436; 212 N.W.2d. 922 (1973)............

3

People v Grant, 211 Mich. App. 200; 535 NW 581 (1995).............

13

People v Hoyt, 185 Mich. App. 531; 462 N.W.2d. 793 (1990)..........

20

People v Jonhson, 451 Mich. 115; 545 N.W.2d. 637 (1996)............

13

People v Kelly, 186 Mich. App. 524; 465 N.W.2d. 569 (1990).......

20

People v Pickens, 446 Mich. 298; 521 N.W.2d. 797 (1994).............

11, 13

People v Theodorou, 10 Mich. App. 409; 159 N.W.2d. 765 (1968)

20

Constitutional Provisions
2

U.S. Const., Am. V......

...... 2, 10, 12

U.S. Const., Am. VI

2, 12

U.S. Const., Am. XIV
Mich. Const. 1963, art. 1, § 17

2

Mich. Const. 1963, art. 1, § 20

11

Statutes
28 U.S.C. §1254(1):;..

v, Vll

28 U.S.C. §1915(a)(l)

Vll

28 U.S.C. §§ 1291

.1

28 U.S.C. §§ 1331, 1334, 2201, 2202

;1
n

;.l 1

28 U.S.C. §2253......
28 U.S.C. §2254

1

28 U.S.C. §2254(d)....

8

28 U.S.C. §2254(d)(l)

9

Rules
3

M.C.R. 7.313
Miscellaneous

Antiterrorism and Effective Death Penalty Act (“AEDPA”), Pub.L. No. 104-132, 110
8

Stat. 1214(1996)

m

CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF
THE OPINIONS AND ORDERS BELOW
The final order of the United States Court of Appeals, 6th Circuit, denying a
certificate of appealability, appears at APPENDIX A to the petition and is reported
at Jermaine Latwone Haynes v Willis Chapman, 2021 U.S. App. LEXIS 11675
(Case No. 20-1221; April 20, 2021). The final opinion and order of the United States
District Court - E.D. Mich.., denying the petition for writ of habeas corpus and
declining to issue a certificate of appealability appears as APPENDIX B to the
petition and is reported at; Haynes v Campbell, 2020 U.S. Dist. LEXIS 16904, (Dk.
No. 16-cv-14371, E.D. Mich.., February 3, 2020).The final order'from the Michigan
Supreme Court is published at People v Haynes, 871 N.W.2d 191, 2015 Mich.
LEXIS 2711, 498 Mich. 921 (S.C. No. 151877, November 24, 2015).

The final

opinion of the Michigan Court of Appeals is published at, People v Haynes, 2015
Mich. App. LEXIS 1029 (Mich. Ct. App. No. 320409, May 19, 2015). (See Appendix,
filed under separate cover).

JURISDICTION
Petitioner, Jermaine Latwone Haynes respectfully petitions for a writ of
certiorari to review the final judgment of the United States Court of Appeals for the
Sixth Circuit, (2021 U.S. App. LEXIS 11675, Case No. 20-1221, April 20,2021). This
Court has jurisdiction under 28 U.S.C. §1254(l).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. CONST. AMEND. TV: The right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable searches and seizures.
IV

shall not be: violated, and no Warrants shall issue,''but upon probable cause,
supported by Oath or affirmation, and particularly describing the place, to be '.
searched, and the persons or things to be seized.
U.S. CONST. AMEND. V- No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or indictment of a Grant Jury,
except in cases arising-in'the land or naval forces, or in the Militia, when in actual
service in'time of War or public danger; nor shall any person be subject for the same
offense to be twice put in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for public
use, without just compensation.
U.S. CONST. AMEND. XIV* All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of the United States and
of the State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal protection of the laws. The
Sixth Amendment of the United States Constitution states in relevant part- “In all
criminal prosecutions, the accused shall...have the assistance of counsel for his
defense.” “The Sixth Amendment right to counsel is applicable to the states through
the Due Process Clause of the Fourteenth Amendment.” People v Williams, 470

v

Mich. 634; 641; 638 NW2d 597 (2004) (citing Gideon v Wainwright, 372,US 335; 83
S Ct 792, 9 L Ed 2d 799 (1963)).
28 U.S.C. 1254(1)- Cases in the courts of appeals may be reviewed by the.
Supreme Court by Writ of Certiorari granted upon the petition of any party to any
civil case, before or after rendition.of judgment or decree.
28 U.S.C. 1915(a)(1)- Subject to subsection (b), any court of the United States
may authorize the commencement, prosecution or defense of any suit, action, or
proceeding, civil or. criminal, or appeal therein, without prepayment of fees, or
security therefore, by a person who submits an affidavit that includes a statement
of all assets such prisoner possesses that the person is unable to pay such fees or
give security therefor. Such affidavit shall state the nature of the action, defense or
appeal and affiant's belief that the person is entitled to redress.

vi

■' -

STATEMENT OF THE CASE
A. Factual background and trial court proceedings
Petitioner Haynes was convicted on January 9, 2014, of the offenses of two
counts of Assault w/intent to Murder, Felon in Possession of Firearm, and
Felony Firearm. Petitioner Was sentenced as a habitual fourth offender to 30*50
■ years concurrent terms with possession of a firearm, followed by a consecutive 2
years for the Felony Fifearm, Petitioner alleges that he was not properly
represented during his trial procedures by trial counsel in violation of the US
■ Cons, Ams V, VI, XIV; Cons. 1963, art 1, § 17.
Mr. Haynes contends that trial counsel was deficient when he failed to*
a.) investigate, discover, and present Ms. Melrose Williams5 text-messages
to the Petitioner and possible testimony as well as Petitioner’s text-messages to
his brother which would revealed Petitioner’s present state of mind;
b.) obtain hospital and police reports/documents that would have
substantiated Petitioner’s claim as to why he feared for his life;
c.) failed to present a self-defense theory, and for failing to question the
Petitioner as to occurrences which led to his behavior on the day of the incident.
d.) failed to introduce mitigating circumstances at Petitioner’s sentencing
which could have resulted in a lesser sentencing by the trial judge.
e.) counsel neglected to have at Appellant’s defense any psychological
testing of witnesses to determine and establish the sanity and culpability of the
Petitioner.
Because Petitioner was not supplied with a copy of the trial transcripts so
that he may include the necessary page numbers, exhibits, etc., to his Standard
1

4 Brief, and because counsel’s omissions do not appear .on the record, Mr. Haynes
now requests an evidentiary hearing to place on the record the. reasons given by
counsel for his inactions. See People v Ginther, 390 Mich 436, 443; 212 N.W.2d
922(1973).
.

Furthermore, Petitioner also seeks -an evidentiary hearing pursuant to

MGR 7-.313 to develop a testimonial record to support his claims. To the extent
that the claims raised depend on facts not on record, and- the fact that there are
no records/transcripts, it is incumbent upon Mr. Haynes to make a testimonial
record at this level to support his claims- by asking the Court to take the
testimony of trial counsel.

B. Procedural history

'

Mr. Haynes first timely, filed an appeal of right, in which Mr, Haynes
raised all of the issues presented in his habeas petition. On.May 19, 2015, the
Michigan Court of Appeals denied relief on all claims. Michigan Court of Appeals
Opinion, 320409, RE. 1, #1, Page ID 26-35.
The court rejected the claims that his rights under the Fifth. Amendment
were violated where trial counsel failed to investigate and present evidence
related to text messages exchanged by Melrose Williams and petitioner and
■ Frederick Haynes and petitioner, which would have indicated “that the victim
and his friends were seeking out the petitioner with the intent to do him harm”
and that petitioner believed “that his life was in danger from the police.”
Michigan Court of Appeals Opinion, 320409, RE 1, #1, Page ID 29*30. Even
though counsel was well aware that this evidence existed and could present a
2

significant challenge to the prosecutor’s claim that petitioner did not act in selfdefense. Indeed, the introduction of the text-messages would have shown that
petitioner was “in fear for his life”. The court also found no error where trial
' counsel failed to discover and introduce hospital records and police reports-as*
well-as other documents related to Gaskin’s leg injuries; Critical evidence which
could have introduced to the jury the fact that petitioner’s neighbor’s house had
been shot-up because the shooterts] thought that it was petitioner’s house.
Michigan Court of Appeals Opinion, 320409, RE 1 #1, Page ID 31-32.
The Court of Appeals also rejected Mr. Haynes’ argument that he fired the
gun in self-defense after he was approached by Akins with a handgun. Michigan
Court of Appeals Opinion, 320409, RE 1, #1, Page ID 32. The Court also found
that counsel’s failure to introduce mitigating circumstances at petitioner’s
sentencing which may have resulted in petitioner receiving a lesser sentence,
and counsel’s failure to request psychological testing be performed on petitioner,
did not raise to the level of constitutional error requiring relief from a conviction
and sentence that fails to pass constitutional muster. Michigan Court of Appeals
Opinion, 320409, RE 1, #1, Page ID 33*34.
The Michigan Supreme Court denied leave to appeal in its Order of
November 24, 2015. Michigan Supreme Court Order, 151877, RE 1, #2, Page ID
#37. Mr. Haynes’ application to the Supreme Court raised all constitutional
issues again raised herein, and his petition to the Michigan Supreme Court was
filed timely.
Mr. Haynes timely applied for a writ of habeas corpus on the grounds that
the state court unreasonably applied federal law to the claims outlined above.
3

On February 3, 2020;, the United States District Court, by the Honorable
Mathew F. Leitman, denied the petition. Opinion and Order Denying Petitipn for
Writ of Habeas Corpus,. RE 2, Page ID # 1025. The District Court denied a
certificate of appealability relating to all issues raised in this brief. Opinion and
Order Denying Petition for Writ of Habeas Corpus, RE 2, Page ID # 1025.

«<•

4

REASONS FOR GRANTING THE PETITION
GROUND I
Petitioner Was Denied His Constitutional Right To The Effective
Assistance Of Counsel and A Fair Trial Proceeding, Pursuant To U.S.
Const., Amends VI, XIV; Mich. Const. 1963, Art. 1, §20, Where Defense
Counsel failed To'
a. Trial counsel was ineffective for failing to investigate,
discover and present Ms. Melrose Haynes' text
messages to the petitioner and possible testimony as
well as petitioner's text-messages to his brother which
revealed petitioner’s present state of mind.
*

b. Defense counsel, proved ineffective when he failed to
obtain hospital and police reports/documents that
would have substantiated, petitioner's claim as to why
he feared for his life.
c. Counsel was ineffective for failing to present a selfdefense theory, and for failing to question, the
petitioner as to the occurrences which led to his
behavior on the day of the incident.
d. Trial counsel . proved ineffective when he failed to
introduce mitigating circumstances at petitioner's
sentencing which could have resulted in a lesser
sentence by the trial judge.
e. Petitioner was denied his right to due process and
effective, assistance of counsel, wherein counsel
neglected to have at appellant's defense any
. psychological testing or witnesses to determine and
establish the sanity and culpability of the petitioner.
Standard of Review- The Sixth Amendment guarantee of the*
right to counsel encompasses the right to effective
assistance of counsel at trial. US Const., Amend. VI; Const.
1963, art. 1, §20. A defendant is denied this right where (l)
Counsel’s performance fell below the accepted standard of
professional practice, and (2) That deficient performance
prejudiced the defendant. Strickland v Washington, 466 US
668, 687; 104 S Ct 2052, 2064; 80 L Ed 2d 674 (1984);
People v Pickens, 446 Mich. 298, 338; 521 N.W.2d 797, 815
(1994). Prejudice can be demonstrated where the error is
5

sufficient .to undermine confidence in the outcome of the
proceeding,'meaning that a new trial must be granted where
there is a reasonable probability that the jury would have
acquitted if counsel had been effective. Strickland, 466 US
at 694-95.

AnalysisThe Sixth Amendment provides that the accused in a criminal prosecution
"shall enjoy the right ... to have the Assistance of Counsel for his defence." US
Const, Am VI; see also Powell v Alabama * 287 US 45; 53 SCt 55; 77 LEd 158 (1932);
Glasser v United States , 315 US 60!- 62 S Ct 457; 86 LEd 680.(1942). This
requirement is made applicable to the states through the Fourteenth Amendment
due process clause. Gideon v Wainwright, 372 US 335, 342; 83 S Ct 792, 796; 9
LEd2d 799 (1963). Likewise, Const 1963, art 1, §20 provides that the accused in a
criminal prosecution "shall have the right ... to have the assistance of counsel for
his ... defense."
To show that he was denied the effective assistance of counsel, a petitioner
must demonstrate that, considering all of the circumstances, counsel's performance
fell below the objective standard of reasonableness and so prejudiced the petitioner
that he was denied a fair trial and a reasonable probability exists that, but for
counsel's conduct, the result of the proceeding would have been different. Strickland
v Washington, 466 US 668; 104 S Ct 2052; 80 LEd2d 674 (1984); People v Pickens,
446 Mich 298; 509 NW2d 152 (1994); People v Carbin, 463 Mich 590; 617 NW2d 332
(2001). With respect to this second prong of the test, the Court adopted the following
standard1

6

The petitioner must show that there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding .would have been'
different. A reasonable probability*' is a probability sufficient to > undermine
confidence in the outcome. Strickland, 466 US at 694. The Strickland Court
explicitly rejected an "outcome- determinative" - test, i.e. "that counsel's: deficient
conduct more likely than'not altered the outcome in the case." 466 US at 693. In so
doing-the Court reasoned that the outcome of a case which'includes deficientconduct is less entitled to a presumption of accuracy and fairness.
Knowledge of the law applicable1 to the petitioner's case is of course essential
to rendering such assistance. People v Carrick, 220 Mich App 17, 22; 558 NW2d 242
(1996). Counsel here demonstrated that he lacked such knowledge by failing to:

a.)

INVESTIGATE,

DISCOVER AND

PRESENT MS.

MELROSE

WILLIAMS’ TEXT MESSAGES TO THE PETITIONER AND. POSSIBLE
TESTIMONY AS WELL AS PETITIONER’S TEXT-MESSAGES TO HIS
BROTHER WHICH REVEALED PETITIONER’S PRESENT STATE OF MIND.
It is unclear why Ms. Melrose Williams’ text messages were not retrieved
and presented at trial in support of Mr. Haynes’ defense by his attorney Mr.
Winters. What is clear is that Ms. Williams.had personal knowledge that the'victim
and his friends were seeking out the Petitioner with the intent to. do him harm
collaborating Petitioner’s testimony. The Petitioner informed his trial counsel Mr.
William Winters of the existing text messages but counsel completely ignored
Petitioner’s information. Trial counsel should have put forth the effort in
attempting to retrieve and present at trial the text messages in question.
7

Mr.

Haynes was deprived of the right to the effective assistance of counsel by counsel’s
failure to conduct proper investigation in this regard, US Const, Ams VI, XIV; Const
1963, art 1, § .20; Strickland v Washington, 466 US 668; 104 S Ct 2052; 80 L Ed 2d
674 (1984); People vPickens, 446 Mich 298; 521 NW2d 797 (1994).
To be effective, defense counsel must investigate, prepare, and timely assert
all substantial defenses, Kimmelman v Morrison, All US 365; 106 S Ct 2574; 91 L
Ed 2d 305 (1986). The failure to call supporting witnesses can constitute ineffective
assistance where their testimony could have changed the outcome of the case,
People v Johnson, 451 Mich. 115; 545 NW2d 637 (1996); People v Bass, 247 Mich
App 385; 636 NW2d 781 (2001).
The Court held in People v Grant, 470 Mich 477; 684 NW2d 686 (2004) that
trial counsel failed to investigate and substantiate the petitioner’s primary defense
by neglecting to interview a child criminal sexual conduct victim’s-family concerning
a bike accident and resultant vaginal injury they had witnessed, which accident the
child claimed never occurred.: “A sound trial strategy is one that-is de*veloped in
concert with an investigation that is. adequately supported by' reasonable
professional judgments. Counsel must, make an ‘independent examination of the
facts, circumstances, pleadings and laws involved ...’ Von Moltke v Gillies, 332 US
708, 721; 68 SCt 316; 92 L. Ed 2d 309 (1948). This includes pursuing ‘all leads
relevant to the merits of the case,’ Blackburn v Foltz, 828 F 2d 1177, 1183 (C.A.6,
1987).” Grant, supra., (Opinion of Kelly and Cavanagh, JJ, with Taylor and
Markman JJ concurring in the result only).

_

• ,

Based on this principle, the Sixth Circuit affirmed the grant of, a, habeas
petition in McClellan v Rapelje, 703 F3d 344 (CA 6, 2013), a first degree murder
8

case, where trial counsel failed to contact defense witnesses who would have
testified'that the Victim picked up a gun and approached the petitioner with'a gun
before the petitioner shot him.

In granting the petition, the District Court -had

dismissed the assertions that counsel had declined to call the witnesses becausethey could have been impeached based on inconsistencies in their stories; noting that “[t]he problem for Respondent is that none of these factors were considered.'
Defense counsel had no idea what these witnesses had to offer, and'whether the.
value of their proposed testimony.” McClellan v Rapelje, unpublished, 2010 WL
2447999 (June 14, 2011).
The same holds true in the case against the Petitioner, where counsel’s
failure to- discover and present Ms.- Melrose Williams’s text-messages and possible1
testimony undermined Mr. Haynes’ legitimate claim to self-defense.

Moreover,

there is more than a reasonable probability that Mr. Haynes would have been
acquitted of the charges of assault with intent to murder but for counsel’s failure to
present to the jury Ms. Williams’ text messages and testimony, Strickland. supra. ..
In conjunction with counsel’s ineffectiveness in obtaining the above textmessages from Ms. Melrose Williams, counsel was again ineffective when he failed
to retrieve the text-messages sent by the Petitioner to his brother Frederick
Haynes.
During trial, the prosecuting attorney cross-examined the Petitioner, and
during this cross-examination,- she insinuated that the Petitioner was not the victim
as he had stated, but rather the aggressor. That had the Petitioner been a victim he
would have used his cell phone which was on his person at the time, to contact the
police.
9

.Here, counsel had the opportunity to-bring to the jury’s attention the fact
that about a week before the day of the incident, Petitioner had sent text messages
to his brother stating that he felt his life was;_:in danger from the police. Had counsel
retrieved these text-messages, he could have countered the prosecutor’s
insinuations that the Petitioner had not been a victim but the aggressor in the case
by demonstrating the type of fear Petitioner had towards the police. Trial counsel
again proved grossly and constitutionally ineffective.

b.)

DEFENSE COUNSEL PROVED INEFFECTIVE WHEN HE FAILED

TO OBTAIN HOSPITAL AND POLICE REPORTS/DOCUMENTS THAT WOULD
HAVE SUBSTANTIATED PETITIONER’S CLAIM AS TO WHY HE FEARED FOR
HIS LIFE.

As previously stated,- Petitioner Haynes informed his trial counsel that he
had been warned that the victim and his friends were, seeking him out to do him
harm. This information came directly from Ms. Melrose Williams, who was the
sister of Adrian, who is friends with the complainant Mr. David Dwusu and had
personal knowledge as to the intents of the victim and his friends against Mr.
Haynes and Mr. Haynes’s friend Mr. Anthony Gaskins. Petitioner Haynes informed
his trial attorney of the fact that not long after he had received the warning text
messages from Ms. Melrose Williams, Mr. Gaskins had been shot in the leg with
injuries severe enough to. warrant the amputation of his leg. Mr. Gaskins and
Petitioner Haynes were friends and known to hang*out together by the victim and
his friends.
10

In additiori, had trial counsel retrieved the police reports that Petitioner •
Haynes had mentioned to him, he could have introduced to the jury the fact that
Mr. Haynes’ next door neighbor’s house had been shot up because, the perpetrators:
were under the impression that it was Mr. Haynes’residence.
Introducing these facts to the jury would have brought-clarity to the jury as
to1 the Petitioner’s state of mind which could have acquitted Mr. Haynes of the
charges. Instead trial counsel completely disregarded the information given to him
by the Petitioner and in so doing failed to act in accordance with the effective.
assistance standard established in Strickland’ which states that “Counsel has a
duty to either make reasonable-investigations or make a reasonable decision that
makes investigations unnecessary.” Strickland v. Washington, 466 US at 690*691.
Given the importance of the police and hospital reports in substantiating
Petitioner’s defense claim, counsel fell short in fulfilling his obligation and thus
deprived Mr. Haynes of his due process rights accorded to him by both the United
States' Constitution and Michigan Constitution.

c.) COUNSEL WAS INEFFECTIVE FOR FAILING TO PRESENT A SELFDEFENSE THEORY, AND FOR FAILING TO QUESTION THE PETITIONER AS
TO THE OCCURRENCES WHICH LED TO HIS BEHAVIOR ON THE DAY THE
INCIDENT.

The Petitioner Mr. Haynes took the stand in his own defense. Prior to so
doing’ he had made his trial counsel aware that he acted in self*defense when he
fired his weapon in the direction of the complainant Mr. Dwusu. He advised his
11

trial counsel that he did so only after he had observed Malik, who was with Mr.
Dwusu, walking towards him and pulling a handgun out of his waist area. (TT,
01/08/23014, at 12-13). Mr. Haynes advised his counsel that he felt he was in
immediate danger of death and feared for his life and that he felt he had no other
choice available to him but to fire his weapon. .
' However, while Petitioner was on the stand his counsel failed to pose any
questions that would have brought these.facts to the attention of the jury.The case,,
in essence, came down to a credibility contest between the complainant, and Mr.
Haynes. There was no substantial evidence presented at trial to demonstrate that
the petitioner was indeed the aggressor against Mr. Dwusu. On the contrary, had
trial counsel been effective in impeaching Mr. Dwusu with his preliminary
examination transcripts and the fact that Mr. Dwusu was susceptible to the whims
and influences of the police in expressing their story as to what actually took place
between him and Mr. Haynes, the jury- would have convicted the Petitioner of
felonious assault at best, as evidence would have surfaced through the Petitioner’s
testimony as to the true occurrences that led to the incident at hand.
. . Counsel’s failure in not questioning the Petitioner as to the reason why he
fired in the direction of the complainant and his friend proved ineffective1 as it
precluded the petitioner the opportunity to present to the jury the reasons for his
actions on the day of the incident. This was not merely a sound strategic choice, but
failure to represent his client.
Counsel’s decision not to put to the jury Petitioner’s side of what took place
the day of the incident fell outside the range of professionally competent assistance
and mounted to ineffective assistance. Counsel improperly decided not to present
12

testimony favorable to the Petitioner and by doing so lacked tHe. sound trial strategy
requirement accorded to the Petitioner. The only logical explanation for .counsel’s:
failure not to properly question the Petitioner as to the reason for his actions,'or
rather reactions, was counsel’s lack of preparation and to be fully prepare'to proceed.
with trial' and represent his client according to the standards established in
Strickland.
The heart of effective representation is the independent duty, to investigate
and prepare, Goodwin v. Balkcom, 460 U.S. 1098, 103 S.Ct. 1798, 76 L.Ed2d 364,
(1983). Therefore, permissible strategy can never include the failure to investigate
into a petitioner’s plausible line of defense, Strickland, supra. The Court in Moore
v. US., 432 F.2d 730 (3rd Ciry 1970) said:
[6] ... The exercise of the utmost skill during the trial is not enough if
counsel has neglected the necessary investigation and preparation of the case or
failed to interview essential witnesses or to arrange for their attendance.

Such

omissions, of course, will rarely be visible on the surface of the trial, and to that
extent the impression of a trial judge regarding the skill and ability of counsel, will
be incomplete.”” Id., at 739
Counsel proved ineffective for failing to properly question Petitioner and no
form of strategy can justify counsel’s lack of performance other than lack of strategy
itself.

13

d)

TRIAL COUNSEL PROVED INEFFECTIVE WHEN HE FAILED TO

INTRODUCE MITIGATING CIRCUMSTANCE AT PETITIONER’S SENTENCING
WHICH. COULD HAVE RESULTED IN A LESSER SENTENCING BY THE
TRIAL JUDGE.
This court has stated “the right to effective assistance of. .counsel at
sentencing is guaranteed under the federal constitution, as the opportunity is
afforded for .presentation of. facts in extenuation or mitigating of the offense,
correction of any errors in reports of petitioner’s past conduct,, and appeal to the
equity of the court.” (Emphasis added), People y Dye, 6 Mich App 217 (1967); People
v Theodorou, 10 Mich App.409 (1968).
Petitioner Haynes was denied his right to effective assistance of counsel
during the mitigating phase of his trial. Counsel failed to. follow up with obvious
avenues of investigation that -would have, led to valuable mitigating evidence
concerning the Petitioner’s abuse-and violent childhood, his intense grief over the
loss of a family member, and the possibility, that he was suffering from a mental
defect.

PETITIONER WAS DENIED HIS RIGHT TO DUE PROCESS AND
EFFECTIVE ASSISNTANCE OF COUNSEL WHEREIN COUNSEL NEGLECTED
TO HAVE AT APPELLANTS DEFENSE ANY PSYCHOLOGICAL TESTING OR
WITNESSES

TO

DETERMINE

AND

ESTABLISH

THE

SANITY AND

CULPABILITY OF THE PETITIONER.
Ineffective assistance of counsel can be premised on a failure to call witnesses
or present other evidence which would have supported a substantial defense that
14

might have made a difference in the outcome of the trial, People v Hoyt, 185 Mich
App 531, 537-5385 462 NW2d 793 (1990. A defense is substantial if it might have
made a different in the outcome of the trial, People v Kelly, 186 Mich App 5245 465
NW2d 569 (1990).
Under Michigan law, counsel’s1 failure to call an expert witness “constitutes
ineffective assistance of counsel if it deprives the petitioner of a substantial
defense,” People v Dixon, 263 Mich App 393, 398 (2004). A substantial defense is
“one that might have made a difference, at trial,” People v Chapo, 283 Mich App 360,
371 (2009).

Here, the Petitioner made trial counsel aware that he was on

psychotropic medication, in particular Seroquel (See attached Exhibit D), and had
been diagnosed with paranoia schizophrenia and post-traumatic stress disorder, or
PTSD. At the time that counsel-was made aware of these facts, he should have
requested a psychological testing to determine what defense he should put forth on
behalf of the petitioner. Had counsel performed his duties as guaranteed to Mr.
Haynes by the U.S. and Michigan Const., the jury would have heard the possible
reasons why Petitioner was hypersensitive to the surrounding circumstances and
found that the Petitioner was not culpable for his actions.

15

CONCLUSION AND RELIEF SOUGHT

•:

• . WHEREFORE; Petitioner submits that he has presented the Court with.
compelling reasons for consideration and ask that this Court grant the petition for a
writ of certiorari, further Petitioner ask that the Court reverse his convictions and.
remand this matter to the state court with, appropriate instructions.

. Respectfully submitted,
»i •

•,

/s/
L

;'

:ne Lat^one Haynes *
Ji
M.D.O.C. NO. 342370
Macomb Correctional Facility
34625 26 Mile Road
Lenox Township, Michigan 48048
(586) 749-4900
*Petitioner, pro se.

Dated- June 23, 2021

16

